No.

IN THE
SUPREME COURT OF THE UNITED STATES

Ve/j/laflcas dkfk
Petitioner
VS.
STATE OF LOUISIANA,
Respondent.
PROOF OF SERVICE

I. TPe/flafaiS CJafk

do swear or declare that on this date,

L

lOpiD , as required by Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party's counsel, and on every other person required to be served,
by depositing an envelope containing the shove documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to % third-party
commercial carrier for delivery within 3 calendar days.
The names and addressed of those served are as follows:

Pa fish of (jidj'oy
UiSr U/sMct Court, ShMj/Cpf/fc/d)
IA*v Cz>uf-b oP Appeals 4<>r the F&ih Circuit
I declare under penalty ofpetjury that the foregoing is true and correct. __
Executed on

i7/A

, 2090 .

9

Sdpjs-ryiksiO 3J,£.0,3.0

O^lct dike Clerk
Washington, DC MSK-OOOl

Dear clerk l
The above-entitledpetition -for wrii erf certioMr! was returned, to
Petitioner -for the kollowm reasons; Fwkre io comply with ike
content requirements cti ((tile H/petition rot containing:
lr> (k concise- shtewertt of-the case. FJe itI (3)
2^Tk reasons relied on -for be allowance ok-the writ. (Ue Idawdit.Ht)
3 ■» Appendix bike petition -failed b contain 1.he order ok ike Untied
States District Court hr the Western. Dish'd ok Louisiana adopt­
ing be report and recommendation of the MagistrateIpdge must bcap­

pended.

Enclosed biHh -this letter; is the corrected brm of the above-entitledpetition.
With a II of fhi requisite corrections as required by this Court and Iks Pules,
Xfi addition jo a refilled Tabled intents 0 nd Index ok Appendices. tkhoj
all opposing counsels and Courts have been provided withe copy of tike
corrected petition as required. Petitioner also -thanks this ttinorobb Courts
clerk for be umWtfed aideX
SMcerejy,
De/ftlarcus / dark
RECEIVED
■L

SEP 2 9 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

TT

Zm'daM SWi?IkfliMftb'a/'j
/Ifi/ykjlA 107JoL

